C ERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify a copy of the
Response in Opposition to the Petition for a Writ of Certiorari was sent via
1st class mail to the U.S. Supreme Court and a digital copy was sent to
counsel for Petitioner by electronic mail on October 15, 2020. The parties
have consented to electronic service.
Eric A. Shumsky
Thomas M. Bondy
Randall C. Smith
Sheila Baynes
Upnit K. Bhatti
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15th Street, N.W.
Washington, D.C. 20005
(202) 339-8400 tbondy@orrick.com
S. Jill Benton
Gerald W. King
FEDERAL DEFENDER PROGRAM, INC.
101 Marietta Street,
Suite 1500
Atlanta, Georgia 303
/s/ Sabrina D. Graham
Sabrina D. Graham

